E. Mark Braden
direct dial: 202.861.1504
MBraden@bakerlaw.com

CERTIFICATE OF SERVICE
I, Efrem Mark Braden, a member of the Bar of the Supreme Court of the United
States, certify that one original with two copies of the Reply Brief in Support of
Emergency Application for Stay of Judgment for Steve Chabot, et al. v. Ohio A. Philip
Randolph Institute et al. will be send by courier for hand delivery to the Supreme
Court of the United States and, per Supreme Court Rule 29.3, a single copy of the
brief was sent by a third-party commercial carrier for delivery within three calendar
days and by electronic mail to the following parties listed below, this 21st day of May,
2019:
T. Alora Thomas-Lundborg
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
212-549-2500
athomas@aclu.org

Benjamin M. Flowers
STATE SOLICITOR OF OHIO
30 East Broad Street,
17th Floor
Columbus, OH 43215
614-466-8980
benjamin.flowers@ohioattorneygeneral.gov

Robert Fram
GOLDSTEIN COVINGTON & BURLING
LLP
415 Mission Street, Suite 4500
San Francisco, CA 94105
415-591-6000
rfram@cov.com

Philip J. Strach
OGLETREE, DEAKINS, NASH, SMOAK &
STEWART, P.C.
4208 Six Forks Road, Suite 1100
Raleigh, NC 27609
919-787-9700
Phil.strach@ogletree.com

Counsel for Plaintiffs

Counsel for Defendants

All parties required to be served under Supreme Court Rule 29 have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This certificate is executed this day, May 21, 2019.
E. Mark Braden
United States Supreme Court Bar No. 153028
Baker & Hostetler LLP
1050 Connecticut Ave., NW
Suite 1100
Washington, DC 200036
(202) 861-1674
mbraden@bakerlaw.com

